2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Tr

C@OCKLE

Legal Briefs

Est. 1923

No. 19-123

SHARONELL FULTON, et al.,

Petitioners,

v.
CITY OF PHILADELPHIA, et al.,

Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of August, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE LEGAL SCHOLARS IN SUPPORT
OF EQUALITY IN SUPPORT OF RESPONDENTS in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the

following:

To be filed for:

KYLE C. VELTE
Associate Professor
Counsel of Record

UNIVERSITY OF KANSAS
SCHOOL OF LAW

1535 W. 15th St.

Lawrence, KS 66045

(720) 648-9266

kvelte@ku.edu

DAVID B. CRUZ
Newton Professor of
Constitutional Law
UNIVERSITY OF SOUTHERN
CALIFORNIA
GOULD SCHOOL OF LAW
699 Exposition Blvd.
Los Angeles, CA 90089

SEE ATTACHED

CLIFFORD S. DAVIDSON
SNELL & WILMER

One Centerpointe Dr.

Lake Oswego, OR 97035
503-624-6800
csdavidson@swlaw.com

MICHAEL J. HIGDON
Associate Dean for Faculty
Development and
Professor of Law
UNIVERSITY OF TENNESSEE
COLLEGE OF LAW
1505 W. Cumberland Avenue
Knoxville, TN 37996

Subscribed and sworn to before me this 18th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska

RENEE J. GOSS

My Comm. Exp. September 5, 2023,

 

Kent

Notary Public

9. Lleoo

KELLY H. DOVE

SNELL & WILMER

3883 Howard Hughes Pkwy.,
Suite 1100

Las Vegas, NV 89169

702-784-5286

kdove@swlaw.com

SHIRLEY LIN
Acting Assistant Professor
NEW YORK UNIVERSITY
SCHOOL OF LAW
40 Washington Sq. South
New York, NY 10012

Oudeaw-h. Gh

Affiant 40010
 

 

Attorneys for Petitioners

Mark Leonard Rienzi The Becket Fund for Religious Liberty (202) 955-0095
Counsel of Record 1200 New Hampshire Ave., NW
Suite 700

Washington, DC 20036

mrienzi@becketiaw.org

Party name: Sharonell Fulton, et al.

 

 

Attorneys for Respondents

Leslie Cooper American Civil Liberties Union 2125197815
Counsel of Record 125 Broad Street
New York, NY 10004

Icooper@aclu.org
Party name: Intervenor Support Center for Child Advocates and Philadelphia Family Pride

Neal Kumar Katyal Hogan Lovells US LLP 202 637 5528
Counsel of Record 555 Thirteenth St., N.W.
Washington, DC 20004

neal.katyal@hoganlovells.com

Party name: City of Philadelphia, Department of Human Services for the City of Philadelphia, Philadelphia Commission on Human Rela-
tions

 

 
